The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Shara L. Aranoff, Chairman
                                        Deanna Tanner Okun
                                        Daniel R. Pearson
                                        Irving A. Williamson
                                        Dean A. Pinkert
                                        David S. Johanson
     UNITED STATES INTERNATIONAL TRADE COMMISSION

                         OFFICE OF INSPECTOR GENERAL
                                 WASHINGTON, DC 20436




June 20, 2012                                                      OIG-KK-009


Chairman Aranoff:

This memorandum transmits the Office of Inspector General’s final report, Evaluation on
Controlling Confidential Business Information and Business Proprietary Information
(CBI/BPI), OIG-ER-12-09. When finalizing the report, we considered management’s
comments on our draft report and have included those comments in their entirety in
Appendix A. The evaluation focused on whether the Commission effectively controlled
the use and retention of CBI/BPI (outside of EDIS) after official investigations have been
closed.

This evaluation contains six recommendations for corrective action. In the next 30 days,
please provide me with your management decisions describing the specific actions that
you will take to implement each recommendation.

Thank you for the courtesies extended to the evaluators during this review.




Philip M. Heneghan
                          U.S. International Trade Commission

                                         Evaluation Report




                                         TableofContents

Results of Evaluation .................................................................................... 1

Problem Areas and Recommendations....................................................... 2
   Problem Area 1: Employees did not follow Commission policies for controlling the
   handling of CBI/BPI within the Commission. ................................................................ 2

   Problem Area 2: Employees did not follow the Commission’s policies for controlling
   the handling of nonrecord information within the Commission. .................................... 4

Management Comments and Our Analysis ............................................... 6

Appendix A: Management Comments on Draft Report .......................... A




OIG-ER-12-09                                           i
                         U.S. International Trade Commission

                                       Evaluation Report


                                  Results of Evaluation
The objective of this evaluation was to answer the following question:

        Does the Commission effectively control the use and retention of CBI/BPI
        (outside of EDIS 1) at the end of investigations and proceedings?

No. The Commission does not effectively control the use and retention of CBI/BPI
(outside of EDIS) at the end of investigations and proceedings.

We evaluated the Commission’s policies, procedures, and practices of controlling the use
and retention of CBI/BPI at the end of investigations and proceedings and found:

    x   CBI/BPI was retained indefinitely as a routine practice by employees as a matter
        of convenience and preference;
    x   Current practices for the safeguarding of CBI/BPI were not consistent with
        Commission guidance as provided in the Handbook for Protecting National
        Security Information, Confidential Business Information, and Sensitive
        Information;
    x   Procedures regarding the retention of CBI/BPI were not consistent between
        Commission Offices;
    x   The Commission does not follow established policies regarding the retention or
        disposal of documents that are not official records (nonrecord materials); and
    x   Many employees were unaware if they ever received training on the appropriate
        handling, use, retention, and destruction of CBI/BPI or nonrecord information.

We identified the following two problem areas: (1) employees did not follow the
Commission policies for controlling the handling of CBI/BPI within the Commission;
and (2) employees did not follow the Commission’s policies for controlling the handling
of nonrecord information within the Commission. These problem areas and
corresponding recommendations relating to the handling of CBI/BPI are described in
detail below.




1
  The Electronic Document Information System (EDIS) is the repository for all documents filed in relation
to an investigation or proceeding conducted by the United States International Trade Commission (USITC).

OIG-ER-12-09                                       1
                       U.S. International Trade Commission

                                   Evaluation Report


                   Problem Areas and Recommendations

                                   Problem Area 1:
       Employees did not follow Commission policies for controlling the handling
                          of CBI/BPI within the Commission.


The USITC Handbook for Protecting National Security Information, Confidential
Business Information, and Sensitive Information (the Handbook), provides the policy and
procedure for controlling the handling of CBI/BPI. The definition of CBI/BPI can be
found in the Commission's regulations at 19 C.F.R. §201.6. The Commission's
regulations define CBI/BPI as information which concerns or relates to the business
processes and information the disclosure of which is likely to impair the Commission's
ability to conduct its business or cause substantial harm to the competitive position of the
organization from which the information was obtained.

The Handbook addresses, among other things, the storage, marking, transmission,
retention, and destruction of CBI/BPI; however, the Handbook which was last updated in
2003, contained a number of outdated policies and procedures. In addition, this
Handbook was primarily written to address the handling of National Security Information
and CBI/BPI appears to be a later addition or after thought. The CBI/BPI policies were
unclear and confusing in important places such as transmission and destruction which led
to some of the findings uncovered during this evaluation.

During this evaluation, we observed many instances where employees were not following
even the outdated policies as outlined in the Handbook. We found documents which
contained CBI/BPI that had been reproduced but were not properly labeled with that
distinction. We identified documents containing CBI/BPI that were sitting on open
shelves. We also located multiple copies of documents containing CBI/BPI information
for investigations and proceedings that had closed. When employees were asked about
the policies controlling CBI/BPI there was confusion as to who was responsible and a
variety of responses including:

   x     Employees were unaware of any policies regarding the destruction of CBI/BPI;
   x     Individual attorneys are in charge of the destruction of the CBI/BPI material with
         no audit or follow up; and
   x     Some Office Managers are in charge of the destruction of nonrecord CBI/BPI
         with no audit or follow up.




OIG-ER-12-09                                  2
                          U.S. International Trade Commission

                                        Evaluation Report


Additionally, when asked why copies of CBI/BPI documents were retained past the
closure 2 of investigations and proceedings, a practice that violates the policies contained
in the Handbook, responses included:

         x   Some employees always keep electronic trial exhibits until they run out of
             room;
         x   Some employees have been told that all CBI material should be destroyed at
             the close of investigations; and
         x   Some employees have never been told when it was an appropriate time to
             destroy CBI/BPI documents at the end of investigations.

Further, some personal offices contained nonrecord copies of CBI/BPI documents for
investigations and proceedings that had concluded and some of the offices inspected did
not separate the nonrecord copies of CBI/BPI documents of different investigations and
proceedings, leaving documents in stacks on the floor and shelves. The employees in
these offices had trouble distinguishing what CBI/BPI documents existed in their own
areas.

The Handbook also states that training will be provided to each new employee within
three months of their arrival date and training will be provided to all employees on an
annual basis; however, during the interview process, many staff members stated they had
never been trained or could not recall whether or not they ever received training. In
addition, none of the employees acknowledged the existence of the Handbook.

When asked about CBI/BPI polices, responses included:

    x    Employees have been told to keep everything because everything is a government
         record and nothing should be destroyed;
    x    The only training that is done within offices is done yearly by the Records staff;
         and
    x    The requirement to destroy CBI is based on a lack of space within the office.

Additionally, one employee noted that an employee found a document containing CBI
information that was not disposed of properly. The employee who found the document
was able to locate the employee who improperly disposed of the document and, during
the subsequent discussion, the employee noted that the employee responsible for the
improper disposal was unaware of the proper procedures to follow.



2
  For the purposes of this evaluation, we defined an investigation/proceeding as being closed when the
statute of limitations has expired regarding possible appeals or is terminated by settlement or withdrawal of
the complaint.

OIG-ER-12-09                                          3
                        U.S. International Trade Commission

                                     Evaluation Report


Because the staff were not adequately trained or provided guidance for handling CBI/BPI
information, employees were left to determine on their own the best practices for how
documents containing nonrecord copies of CBI/BPI should be handled or destroyed. As
a result, each Office was governed by inconsistent policies.

Employees need to be trained on how to properly handle information provided to the
Commission. Any staff member who is not properly handling CBI/BPI documents puts
the Commission’s reputation for protecting that information at risk. Any unauthorized
access or loss of this data would not only be an embarrassment to the Commission, but
could jeopardize the public’s trust in the Commission’s ability to properly safeguard
confidential and proprietary business information.

Recommendation 1: That the Commission create a Commission-wide written policy that
specifically addresses procedures for handling and destroying nonrecord copies of
CBI/BPI documents when an investigation or proceeding is closed.

Recommendation 2: That the Commission Offices identify a lead and alternate
individual who will be responsible for ensuring that nonrecord copies of documents
containing CBI/BPI are destroyed when appropriate.

Recommendation 3: That the Office of the Chief Information Officer develop a
procedure to periodically evaluate the effectiveness of the CBI/BPI policy.

Recommendation 4: That the Commission train employees on the policies and
procedures for handling CBI/BPI during the course of an investigation and destroying
CBI/BPI at the conclusion of an investigation.




                                   Problem Area 2:
        Employees did not follow the Commission’s policies for controlling the
            handling of nonrecord information within the Commission.


The National Archives and Records Administration (NARA) requires agencies to
incorporate the management of nonrecord materials into their Records Management
Program. 3 The definition of nonrecord material can be found at 36 CFR 1222.14.
Nonrecord materials are U.S. Government-owned documentary materials that do not



3
 See 37 CFR 1222.14, http://www.archives.gov/about/regulations/part-1222.html (“An agency's records
management program also needs to include managing nonrecord materials.”)

OIG-ER-12-09                                      4
                        U.S. International Trade Commission

                                      Evaluation Report


meet the conditions of records status or that are specifically excluded from the statutory
definition of records. Some examples of nonrecord materials that may be applicable to
the Commission are publications, library materials preserved for reference, and extra
copies of documents used for convenience or reference. The disposition of nonrecord
material is supposed to be determined by the Commission and does not require NARA
approval; however, one of the guidelines provided by NARA includes requiring
nonrecords to be purged when they are no longer needed for reference. 4

Throughout our evaluation, we found nonrecord CBI/BPI documents from investigations
and proceedings that have concluded. The hard copy documents remain on shelves or in
electronic files long after they should have been disposed of according to Commission
record keeping policies.

Commission staff stated that, in order to do their jobs effectively, it was necessary to
keep hard copy and electronic versions of documents containing CBI/BPI readily
available, despite having access to these documents through EDIS. The main explanation
for why documents are kept after the close of investigations and proceedings was that
employees preferred the “accessibility” of the hard copy or the electronic version retained
on their local directory. Based on this practice, physical and electronic copies of
documents are retained for potential use and remain on shelves and in personal network
folders long past the close of investigations.

We observed one Office which had CBI/BPI hard copy documents filed on shelves
identified by the employee who was responsible for them; however, the documents
themselves were disorganized and not clearly labeled, and some shelves contained
nonrecord copies of CBI/BPI documents from former employees that were never
removed at the end of their employment. Further, some personal offices contained
nonrecord copies of CBI/BPI documents for investigations and proceedings that had
concluded and some of the offices inspected did not separate the nonrecord copies of
CBI/BPI documents of different investigations and proceedings, leaving documents in
stacks on the floor and shelves. The employees in these offices had trouble
distinguishing what CBI/BPI documents existed in their own areas.

Employees are also maintaining electronic documents of CBI/BPI on the Commission’s
network for indeterminate periods of time. Some documents are deleted when there is a
lack of server space; however, the majority of the electronic documents that contain
CBI/BPI for closed investigations and proceedings are never deleted.




4
 See 36 CFR 1222.16, http://www.archives.gov/about/regulations/part-1222.html (“Nonrecord materials
should be purged when no longer needed for reference. NARA's approval is not required to destroy such
materials.”)

OIG-ER-12-09                                       5
                     U.S. International Trade Commission

                                Evaluation Report


When asked why electronic documents are kept after the close of investigations and
proceedings, responses included:

   x   It would take too much time to delete the material exchanged by the parties and
       only keep the documents authored;
   x   A reason for not relying on EDIS (besides historical problems) is that the
       documents are in PDF format and the argument sections cannot be easily copied;
   x   “Form files” are used as a research tool in order to prevent “reinventing the
       wheel;”
   x   Some of the documents could be scrubbed, but others contain an analysis that
       requires looking at specific information for comparison. In those cases, the CBI
       information is what makes the document(s) useful;
   x   Employees were unable to find official record of investigator notes on EDIS that
       should have been part of official record so they are forced to rely on their own
       copies; and
   x   Some documents on EDIS are not searchable.

Each time an employee maintains a nonrecord document outside of EDIS that contains
CBI/BPI, the risk of unauthorized access to the Commission’s information increases. In
addition, maintaining large amounts of unnecessary records reduces resources available
for other Commission requirements and could result in increased costs for additional
servers and storage capacity at secondary data centers.

Recommendation 5: That the Commission evaluate the legality and the risk of
preserving nonrecord copies of documents after the close of investigations and
proceedings.

Recommendation 6: That the Commission up-date policies and procedures for managing
nonrecord material, both in electronic and hard copy formats.




              Management Comments and Our Analysis
On June 15, 2012, Chairman Deanna Tanner Okun provided management comments on
the draft evaluation report. The Chairman agreed with our assessment that there are two
problem areas related to the use and retention of CBI/BPI and concurred with our
conclusions. The Chairman’s response is provided in its entirety as Appendix A.




OIG-ER-12-09                               6
                       U.S. International Trade Commission

                                   Evaluation Report


                     Objective, Scope, and Methodology
Objective:

         Does the Commission effectively control the use and retention of CBI/BPI
         (outside of EDIS) at the end of investigations and proceedings?

Scope:

         The scope of this evaluation included closed out investigations.

         For the purposes of this evaluation, we defined an investigation/proceeding as
         being closed when the statute of limitations has expired regarding possible
         appeals or is terminated by settlement or withdrawal of the complaint.

         We examined the OUII 337 investigation history reports to determine the
         responsible internal employees for closed proceedings.

         The term "business proprietary information" (BPI) or "confidential business
         information" (CBI) is defined in the Commission's regulations at 19 C.F.R.
         §201.6. The regulations define confidential business information as information
         which concerns or relates to the trade secrets, processes, operations, style of
         works or apparatus, or to the production, sales, shipments, purchases, transfers,
         identification of customers, inventories, or amount or source of any income,
         profits, losses, or expenditures of any person, firm, partnership, corporation, or
         other organization, or other information of commercial value, the disclosure of
         which is likely to have the effect of either impairing the Commission's ability to
         obtain such information as is necessary to perform its statutory functions, or
         causing substantial harm to the competitive position of the person, firm,
         partnership, corporation, or other organization from which the information was
         obtained, unless the Commission is required by law to disclose such information.

         The term "confidential business information" has the same meaning as "business
         proprietary information" as defined in the Commission's regulations at 19 C.F.R.
         §201.6.

Methodology:

         We reviewed of all statutes, regulations, policies, and procedures applicable to the
         USITC regarding the destruction or preservation of documents.

         We conducted interviews, and reviewed document storage areas containing
         CBI/BPI, including both physical and electronic storage facilities.


OIG-ER-12-09                                  7
                     U.S. International Trade Commission

                                 Evaluation Report


       The methodology used during this inspection included in-person interviews and
       physical inspections of offices, storage areas, and shared drives.

We interviewed employees in the followings Offices:

   x   Office of Operations
   x   Office of Investigations
   x   Office of Unfair Import Investigations
   x   Office of the Administrative Law Judges
   x   Office of the General Counsel
   x   Office of Docket Services

We reviewed the onsite storage areas of CBI/BPI material for the following Offices:

   x   Office of Operations
   x   Office of Investigations
   x   Office of Unfair Import Investigations
   x   Office of the Administrative Law Judges
   x   Office of the General Counsel
   x   Office of Docket Services

We analyzed the results of our interviews and the results of our physical review of the
document storage areas containing CBI/BPI.




OIG-ER-12-09                                8
               U.S. International Trade Commission

                          Appendix A


    Appendix A: Management Comments on Draft Report




OIG-ER-12-09                   A
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870’s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
